           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION




  ECONOMIC RECOVERY PAYMENTS –
       CATCH-UP PAYMENTS

     January 2011   A-09-10-11099




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      January 10, 2011                                                                        Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Economic Recovery Payments – Catch-Up Payments (A-09-10-11099)


           OBJECTIVE

           Our objectives were to determine whether the Social Security Administration (SSA)
           (1) accurately certified Social Security beneficiaries entitled to receive catch-up
                                           1
           economic recovery payments (ERP) under the American Recovery and Reinvestment
                                  2
           Act of 2009 (ARRA); and (2) had controls and procedures in place to prevent the
           issuance of duplicate ERPs to ineligible beneficiaries.

           BACKGROUND

           ARRA provided for a one-time ERP of $250 to certain adult Social Security and
           Supplemental Security Income (SSI) beneficiaries. 3 Individuals eligible for benefits
           for any of the 3 months before the month of enactment (that is, November 2008,
           December 2008, and January 2009) were eligible to receive the one-time payment.
           Payments were required to be made only to individuals residing in 1 of the 50 States,
           the District of Columbia, Puerto Rico, Guam, the U.S. Virgin Islands, American Samoa,
           or the Northern Mariana Islands. If individuals received both Social Security and SSI,
           they were eligible for only one $250 payment. 4

           In addition, ARRA provided for a one-time payment to Department of Veterans
           Affairs (VA) and Railroad Retirement Board (RRB) beneficiaries. 5 VA and RRB were
           responsible for certifying the individuals entitled to receive payments under their

           1
               Also referred to as stimulus payments or one-time payments.
           2
               Pub. L. No. 111-5, Division B, Title II § 2201(b), H.R. 1-338.
           3
            We use the term “beneficiary” generically in this report to refer to both Social Security beneficiaries and
           SSI recipients.
           4
               Pub. L. No. 111-5, Division B, Title II § 2201(a), H.R. 1-337.
           5
               Pub. L. No. 111-5, Division B, Title II § 2201(a)(1), H.R. 1-336 to 1-337.
Page 2 - The Commissioner

respective programs and providing the Department of the Treasury (Treasury) with
                                                 6
the information needed to disburse such payments. If individuals received both
Social Security or SSI payments and VA or RRB benefits, they were eligible for only
one $250 payment. 7

SSA was required to identify and certify the Social Security and SSI beneficiaries
eligible for an ERP and provide Treasury with the information needed to disburse the
payments. 8 In April 2009, SSA identified all beneficiaries who met the eligibility criteria
from its payment records. In May 2009, about 52 million beneficiaries received their
$250 payments, totaling about $13 billion. From June 2009 through December 2010,
SSA performed periodic catch-up runs to identify and certify ERPs to newly eligible and
payable individuals.

As part of our review, we identified (1) 620,712 beneficiaries who received
about $155.2 million in catch-up ERPs between June and December 2009; and
(2) 1,008 beneficiaries who may have received more than 1 ERP, totaling $248,227,
without any evidence of a returned payment between May 2009 and January 2010.

RESULTS OF REVIEW

SSA properly certified 99.8 percent of the catch-up ERPs to beneficiaries who
were eligible to receive payment under ARRA. In addition, we did not identify any
beneficiaries who were eligible for an ERP but were not certified to receive payment.
However, we estimate that 989 of the 1,008 beneficiaries received improper payments
totaling $247,250 (see Appendix C). 9 As a result, SSA could improve its controls
and procedures to reduce the potential for duplicate payments and double check
                     10
negotiations (DCN). Specifically, we estimate that

•      449 beneficiaries received 2 ERPs because they did not have a Social Security
       number (SSN) or had 2 different SSNs, resulting in $112,250 in improper payments;

•      468 beneficiaries filed for nonreceipt and subsequently negotiated both the original
       and replacement ERPs, resulting in $117,000 in improper payments; and

•      72 beneficiaries were concurrently entitled to Social Security and SSI benefits and
       received 2 ERPs, resulting in $18,000 in improper payments.

6
     Pub. L. No. 111-5, Division B, Title II § 2201(b), H.R. 1-338.
7
     Pub. L. No. 111-5, Division B, Title II § 2201(a)(3), H.R. 1-337.
8
     Pub. L. No. 111-5, Division B, Title II § 2201(b), H.R. 1-338.
9
 The 989 beneficiaries represent about .16 percent of the 620,712 beneficiaries who received a catch-up
ERP between June and December 2009.
10
     The cashing of both an original and replacement ERP check is referred to as a DCN.
Page 3 - The Commissioner

This occurred, in part, because SSA’s automated systems did not always identify
whether ERPs had previously been issued to beneficiaries without an SSN or under
another SSN or payment record. The results of our review are summarized below.



           Beneficiaries Who Received More Than One ERP
                        Based on a Population of 1,008 Beneficiaries

           Had No SSN                                                          Filed for Nonreceipt
        or Tw o Different                                                      and Negotiated Only
           SSNs (449)                                                              One ERP (19)




            Received Tw o
                                                                               Filed for Nonreceipt
           ERPs for OASDI
                                                                               and Negotiated Tw o
             and SSI (72)
                                                                                    ERPs (468)




BENEFICIARIES RECEIVED MORE THAN ONE ECONOMIC RECOVERY PAYMENT

We identified a population of 1,008 beneficiaries who may have received more than
                                                               11
1 ERP totaling $248,227 between May 2009 and January 2010. These beneficiaries
did not have any evidence of a returned ERP on their payment record. Of these,
72 beneficiaries received an ERP based on their Social Security entitlement and a
second ERP based on their SSI eligibility. We reviewed all 72 of these beneficiaries.
For the remaining 936 beneficiaries, we reviewed a random sample of 50 beneficiaries
(see Appendix C). Of these, 24 either did not have an SSN or had 2 different SSNs,
and 26 claimed nonreceipt of their ERPs.

   Newly Eligible and Payable Beneficiaries – Beginning in June 2009, SSA performed
catch-up runs to identify beneficiaries who met the eligibility requirements for an ERP
but were not paid when the initial payments were disbursed in May 2009. These
beneficiaries became eligible for an ERP because of their recent entitlement to Social
Security benefits while others were previously excluded from payment because their
benefits had been temporarily suspended.

SSA developed the Economic Recovery List Query (ERLQ) to provide information
for each beneficiary who was selected to receive an ERP. The ERLQ consists of

11
   The ERP is subject to offset, in whole or in part, by Treasury. An ERP offset may be used to collect
delinquent debts owed to Federal or State Government agencies. As a result, not all beneficiaries in our
population received a $250 payment.
Page 4 - The Commissioner

pre-payment, payment, and post-payment information, including the status of any
reclamation actions. However, beneficiaries who are ineligible to receive an ERP
will not have any information posted to the ERLQ. 12

Based on a random sample of 50 beneficiaries, we found 24 had received 2 ERPs
because, according to SSA’s records, they were incorrectly identified as newly eligible
and payable. However, we determined these beneficiaries had already received an
ERP. For 20 beneficiaries, SSA had not recorded the beneficiary’s SSN on its Master
Beneficiary Record (MBR) when the initial ERP was issued in May 2009. For the
remaining four beneficiaries, the ERPs were issued under two different SSNs. As a
result, these beneficiaries received $6,000 in duplicate payments. All 24 beneficiaries
negotiated both ERPs. During our review, we referred these cases to SSA for
corrective action.
                       13
In our May 2009 review, we found that SSA needed to ensure the necessary
controls and procedures were in place to reduce the potential for duplicate or
improper payments to beneficiaries without SSNs. At the time of our 2009 review,
SSA estimated about 13,566 beneficiaries who did not have SSNs may be eligible for
ERPs. As such, this increased the risk of duplicate payments.

For example, a Social Security beneficiary had been receiving disability benefits since
August 1983. This beneficiary met the eligibility requirements to receive an ERP in
May 2009. However, SSA had not recorded the beneficiary’s SSN on the MBR. When
the ERP was issued, it was recorded under her father’s SSN. In June 2009, SSA
validated the beneficiary’s SSN and updated the MBR. As a result of this update, it
appeared the beneficiary had not previously received an ERP. Since SSA did not have
controls in place to identify the prior ERP, a second ERP was issued to the beneficiary
in July 2009.

    Beneficiary Nonreceipt Claims – SSA policy indicates that a report of nonreceipt
may be made when an ERP is (1) not received; (2) received but lost, stolen, or
destroyed before it was negotiated; or (3) when they cannot remember receiving such
payment. 14 SSA processes the nonreceipt claims of the original ERP and Treasury
determines the status of the original payment. If the original ERP is outstanding,
Treasury will cancel the payment and issue a replacement ERP. Treasury will take no
further action unless the original ERP is later negotiated.

Of the 50 beneficiaries in our sample, we found that 26 had claimed nonreceipt of
their original ERP and were issued a replacement ERP. We determined 25 of these
beneficiaries had subsequently negotiated both the original and replacement ERPs.

12
     SSA, Program Operations Manual System (POMS), GN 02820.010.E.
13
  SSA, OIG, Economic Recovery Payments for Social Security and Supplemental Security Income
Beneficiaries (A-09-09-29143), May 2009.
14
     SSA, POMS, GN 02406.120.A.
Page 5 - The Commissioner

As a result, these beneficiaries received $6,250 in duplicate payments. Of these, SSA
identified 20 duplicate payments but had not recovered the DCNs from 19 beneficiaries.
SSA had not identified the remaining five duplicate payments. During our review, we
referred these cases to SSA for corrective action.

For example, an SSI recipient was issued an ERP check on May 18, 2009. On
June 25, 2009, the beneficiary filed a report of nonreceipt. Treasury determined
the check was still outstanding and issued a replacement check on June 30, 2009.
The beneficiary negotiated the replacement check on July 8, 2009. However, on
August 28, 2009, the beneficiary also negotiated the original check.

According to SSA, DCNs for ERPs are administrative debts and therefore are not
posted to SSA’s payment records for collection. SSA established separate procedures
to control and collect these debts.

   Concurrently Entitled Beneficiaries – Under ARRA, beneficiaries who are
concurrently entitled to Social Security and SSI benefits are only permitted to be
paid one ERP of $250. 15 During our review, we identified 72 concurrently entitled
beneficiaries who received 2 ERPs—1 for Social Security and 1 for SSI. As a result,
these beneficiaries received $18,000 in duplicate ERPs.

We found that SSA was unaware the 72 beneficiaries had received a duplicate ERP
on the other payment record. For 65 beneficiaries, the second ERP was issued
because SSA had not recorded the beneficiary’s SSN on the MBR for 1 of the ERPs.
For four beneficiaries, the ERPs were issued under another SSN for the beneficiary.
The remaining three beneficiaries received the first ERP under an incorrect SSN and
the second ERP under the correct SSN. Of the 72 beneficiaries, we found that 70 had
negotiated both ERPs.

For example, a concurrently entitled beneficiary received Social Security and SSI
benefits since May 1973 and August 2006, respectively. This beneficiary met the
eligibility requirements to receive an ERP in May 2009. However, SSA had not
recorded the beneficiary’s SSN on the MBR. As a result, the Social Security ERP was
issued under her spouse’s SSN on May 7, 2009. In addition, the SSI ERP was issued
to the beneficiary on May 18, 2009. Since SSA did not have controls in place to match
the payments disbursed to beneficiaries without SSNs, two ERPs were issued to the
beneficiary.




15
     Pub. L. No. 111-5, Division B, Title II § 2201(a)(3), H.R. 1-337.
Page 6 - The Commissioner

CONCLUSION AND RECOMMENDATIONS
SSA properly certified 99.8 percent of the catch-up ERPs to beneficiaries who
were eligible to receive payment under ARRA. In addition, we did not identify any
beneficiaries who were eligible for an ERP but were not certified to receive payment.
However, we estimate that 989 of the 1,008 beneficiaries received improper payments
totaling $247,250 (see Appendix C). Specifically, we estimate that (1) $112,250 in
improper payments were disbursed to 449 beneficiaries who received 2 ERPs because
they did not have an SSN or had 2 different SSNs; (2) $117,000 in improper payments
were disbursed to 468 beneficiaries who had filed for nonreceipt and subsequently
negotiated both the original and replacement ERPs; and (3) $18,000 in improper
payments were disbursed to 72 beneficiaries who were concurrently entitled to Social
Security and SSI benefits and received 2 ERPs.

Should another ERP be enacted into law, we recommend SSA:

1. Establish additional controls to prevent or detect the issuance of duplicate ERPs to
   beneficiaries without SSNs.

In addition, we recommend SSA:

2. Take appropriate action to recover the 1,008 duplicate ERPs identified by our audit.

OTHER MATTER

Concurrently Entitled Beneficiaries Who Received Two ERPs Were Overpaid

The SSI program provides payments to financially needy individuals who are aged,
                   16
blind, or disabled. SSI payments are reduced or offset by a recipient’s countable
income less certain allowances. Countable income includes both countable earned
and unearned income. Social Security benefits are considered as countable unearned
income. Monthly unearned income in excess of $20 results in a dollar-for-dollar
                           17
reduction in SSI payments.

We found that 61 of the 72 concurrently entitled beneficiaries who received 2 ERPs
were also overpaid because of discrepancies in their SSNs. Consequently, their Social
Security benefits were not counted as unearned income for SSI purposes. Of these,
SSA had properly identified 39 beneficiaries with excess SSI payments and established
$136,054 in overpayments. However, we determined that seven of these beneficiaries
were overpaid an additional $4,890 in excess SSI payments. For the remaining
22 beneficiaries, SSA was unaware the beneficiaries had improperly received


16
     The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
17
     The Social Security Act § 1612, 42 U.S.C. § 1382(a).
Page 7 - The Commissioner

$56,767 in excess SSI payments. As a result, SSA needs to establish $61,657 in
overpayments for the 29 concurrently entitled beneficiaries. During our review, we
referred these cases to SSA for corrective action.

For example, a concurrently entitled beneficiary received Social Security and
SSI benefits since January 1993 and June 2000, respectively. Because of SSN
discrepancies between the MBR and Supplemental Security Record, this beneficiary
received two ERPs in May 2009. In addition, since SSA’s systems did not detect the
beneficiary was concurrently entitled to benefits, it did not consider the $467 in monthly
Social Security benefits when determining the beneficiary’s SSI payment amount. As a
result, the beneficiary received $5,598 in excess SSI payments between January 2009
and September 2010.

AGENCY COMMENTS

SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                               Appendix A

Acronyms
ARRA          American Recovery and Reinvestment Act of 2009
DCN           Double Check Negotiation
ERLQ          Economic Recovery List Query
ERP           Economic Recovery Payment
MBR           Master Beneficiary Record
OIG           Office of the Inspector General
PHUS          Payment History Update System
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
RRB           Railroad Retirement Board
SSA           Social Security Administration
SSI           Supplemental Security Income
SSN           Social Security Number
SSR           Supplemental Security Record
Treasury      Department of the Treasury
VA            Department of Veterans Affairs
                                                                     Appendix B

Scope and Methodology
We obtained data extracts from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR), Supplemental Security Record (SSR), and Payment History
Update System (PHUS) of beneficiaries who received a catch-up economic recovery
payment (ERP) between June and December 2009. From the MBR and SSR, we
identified a population of 620,712 beneficiaries who received a catch-up ERP. We
also identified a population of 936 beneficiaries who may have received and negotiated
more than 1 ERP under either the Social Security or Supplemental Security Income
(SSI) programs between May 2009 and January 2010. For each population, we
selected a random sample of 50 beneficiaries for detailed review. In addition, we
identified 72 beneficiaries who were concurrently entitled to Social Security and SSI
benefits and received ERPs under both programs. We reviewed all 72 of these
beneficiaries.

To accomplish our objectives, we reviewed

•   the American Recovery and Reinvestment Act of 2009;

•   applicable Federal laws and regulations, SSA’s Program Operations Manual
    System, and other policy memorandums; and

•   queries from SSA’s MBR, SSR, PHUS, Numident, Economic Recovery List Query,
    Online Retrieval System, and the Treasury Check Information System.

We determined the computer-processed data were sufficiently reliable for our intended
use. We conducted tests to determine the completeness and accuracy of the data,
which allowed us to assess the reliability of the data and achieve our audit objective.

We performed audit work in Richmond, California, between May and June 2010. The
entities reviewed were the Offices of the Deputy Commissioner for Operations and
Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                  Appendix C

Sampling Methodology and Results
Based on a data extract from the Social Security Administration’s (SSA) Master
Beneficiary Record (MBR), Supplemental Security Record (SSR), and Payment History
Update System (PHUS), we identified a population of 620,712 beneficiaries who
received a catch-up economic recovery payment (ERP) of $250 between June and
December 2009. SSA issued about $155.2 million in ERPs to these beneficiaries.
From this population, we selected a random sample of 50 beneficiaries to determine
whether they were entitled to an ERP. Our review disclosed that SSA properly issued
catch-up ERPs to all 50 beneficiaries. In addition, we expanded our work to perform a
review of beneficiaries who received more than one ERP.

We obtained a data extract from the MBR, SSR, and PHUS to identify all beneficiaries
who received more than one ERP between May 2009 and January 2010. From this
extract, we identified a population of 1,008 beneficiaries with more than 1 ERP totaling
$248,227. 1 These beneficiaries had no evidence of a returned ERP on their payment
record. Of these, we found 72 beneficiaries were concurrently entitled to Social
Security and Supplemental Security Income benefits and received 2 ERPs, resulting in
$18,000 in improper payments.

For the remaining 936 beneficiaries, we selected a random sample of 50 beneficiaries
for review. We found 24 beneficiaries received 2 ERPs because these individuals
did not have a Social Security number (SSN) or had 2 different SSNs, resulting in
$6,000 in improper payments. Therefore, we estimate about $112,250 in ERPs were
improperly issued to 449 beneficiaries between May 2009 and January 2010.

We also found 26 beneficiaries had filed for nonreceipt of their original ERP and
were issued a replacement ERP. Of these, 25 beneficiaries subsequently negotiated
both the original and replacement ERPs, resulting in $6,250 in improper payments.
Therefore, we estimate about $117,000 in ERPs were improperly issued to
468 beneficiaries who claimed nonreceipt and subsequently negotiated both the
original and replacement ERPs. In total, we estimate that 989 beneficiaries received
improper payments totaling $247,250. The following tables provide the details of our
sample results and statistical projections.




1
  The ERP is subject to offset, in whole or in part, by the Department of the Treasury. An ERP offset may
be used to collect delinquent debts owed to Federal or State Government agencies. As a result, not all
beneficiaries in our population received their $250 payment.


                                                  C-1
Table 1 – Population and Sample Size

          Description                    Number of Beneficiaries                Amount of Payments
    Population Size                              936                                $230,227
    Sample Size                                    50                                $12,351

Table 2 – Beneficiaries Who Received and Negotiated More Than One ERP

                                                          Number of                   Improper
                 Description                             Beneficiaries                Payments
    Sample Results                                             24                        $6,000
    Point Estimate                                           449                       $112,250
    Projection - Lower Limit                                 338
    Projection - Upper Limit                                 563
    Note: All statistical projections are at the 90-percent confidence level.

Table 3 – Beneficiaries Who Filed for Nonreceipt and Negotiated Two ERPs

                                                          Number of                    Improper
                 Description                             Beneficiaries                Payments 2
    Sample Results                                             25                         $6,250
    Point Estimate                                           468                        $117,000
    Projection - Lower Limit                                 355
    Projection - Upper Limit                                 581
    Note: All statistical projections are at the 90-percent confidence level.




2
  SSA identified 20 of the 25 beneficiaries (80 percent) prior to our audit. These beneficiaries received
$5,000 in improper payments. The remaining 5 beneficiaries (20 percent), who received $1,250 in
improper payments, were not identified by SSA. Assuming our sample results are representative of
the population, we estimate that 94 beneficiaries received $23,500 in improper payments that were not
identified by SSA.


                                                       C-2
                  Appendix D

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:      January 3, 2011                                                     Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Economic Recovery Payments - Catch-Up
           Payments” (A-09-10-11099)—INFORMATION

           Thank you for the opportunity to review the draft report. Attached is our response to the report.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Rebecca Tothero, Acting Director, Audit Management and Liaison Staff at (410) 966-6975.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“ECONOMIC RECOVERY PAYMENTS (ERP) - CATCH-UP PAYMENTS”
(A-09-10-11099)

We offer the following responses to your recommendations:

Recommendation 1

Should another ERP be enacted into law, we recommend SSA establish additional controls to
prevent or detect the issuance of duplicate ERPs to beneficiaries without SSNs.

Response

We agree. As you acknowledge on page 2, “SSA certified and properly issued 99.8 percent of
the catch-up ERPs to eligible beneficiaries under ARRA.” In your May 2010 audit report,
“Economic Recovery Payments for Social Security and Supplemental Security Income
Beneficiaries” (A-09-10-11017), you determined we attained the same 99.8 percent accuracy rate
for the 52 million ERPs we issued in May 2009. Nevertheless, if Congress enacts another ERP
we will consider additional controls to prevent the type of overpayments disclosed in your report.

Recommendation 2

Take appropriate action to recover the 1,008 duplicate ERPs identified by our audit.

Response

We agree. Thank you for providing the names and Social Security numbers for the 1,008 cases.
We have already identified a subset of those cases where beneficiaries claimed non-receipt and
subsequently negotiated both original and replacement ERPs, and we are working to collect the
overpayments. We will use the information you provided to identify the remaining cases and
take actions to collect those overpayments.

Page 7, under “Other Matters”

You identified 29 cases where beneficiaries concurrently entitled to Social Security and
Supplemental Security Income (SSI) benefits may have received excess SSI payments. You
state, “SSA needs to establish $61,657 in overpayments for the 29 concurrently entitled
beneficiaries.”

Response

We are reviewing those 29 cases and will establish overpayments where appropriate.




                                               D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Jack H. Trudel, Audit Manager

Acknowledgments

In addition to those named above:

   Wilfred Wong, Senior Auditor

   Joe Cross, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-11099.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
